GR-80-99-009
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Justice Programs
Bureau of Justice Assistance
San Antonio, Texas, Police Department
 
GR-80-99-009
 
March 19, 1999
 
EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of a
$3,000,000 grant to hire 40 officers, under the Police Hiring Supplement (PHS) program,
awarded by the U.S. Department of Justice (DOJ), Bureau of Justice Assistance (BJA), to
the San Antonio Police Department in San Antonio, Texas. The purpose of the PHS grant was
to hire additional officers to enhance community policing efforts.
Generally, the City of San Antonio properly managed the BJA grant; however, we found
the following discrepancies with regard to meeting the grant conditions: 


The City of San Antonio was paid 75.43 percent of the grant expenditures,
    which resulted in unallowable reimbursements totaling $17,040. The reimbursement
    calculations included unallowable costs, such as telephones, maintenance and repair of
    equipment, office supplies, motor fuel, and computer equipment.

The Financial Status Reports did not accurately reflect the actual expenses of the San
    Antonio Police Department for the sworn officers hired under the PHS grant.

These items are discussed in the Findings and Recommendations section of the report.
Our scope and methodology appear in Appendix I.
#####